HHS/OIG, Audit -"Audit of St. Vincent Medical Center's Organ Acquisition Costs Claimed For The Period July 1,
1998 Through June 30, 1999,"(A-09-03-00046)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of St. Vincent Medical Center's Organ Acquisition Costs Claimed For The Period July 1, 1998 Through June
30, 1999," (A-09-03-00046)
July 30, 2004
Complete Text of Report is available
in PDF format (1.89 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether organ acquisition costs claimed by St. Vincent
on its fiscal year 1999 Medicare Part A cost report for its kidney and heart transplant programs were allowable.  St.
Vincent did not comply with Medicare law, regulations, and guidelines for claiming organ acquisition costs and received
excess Medicare reimbursement for organ acquisition activities.  St. Vincent claimed $813,902 in unallowable
costs and $907,126 in unsupported costs.  The estimated Medicare overpayments for the unallowable and unsupported
costs were $570,596 and $683,315, respectively.  The unallowable costs were associated with activities that did not
comply with Medicares definition of organ acquisition or were incurred for departments unrelated to organ transplantation.  The
unsupported costs did not comply with Medicares documentation requirements for reimbursement.  We recognize that
some portion of the unsupported costs may have related to organ acquisition activities and would have been allowable if
properly documented.  We recommended that the Medicare intermediary recover the Medicare overpayments, determine the
allowability of the unsupported costs, review organ acquisition costs claimed for other fiscal years, monitor future claims,
and have St. Vincent develop accounting controls and training programs.